HHS/OIG-Audit--"Rate Increases for State-Owned Intermediate Care Facilities for the Mentally Retarded - Indiana, (A-05-93-00060)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Rate Increases for State-Owned Intermediate Care Facilities for the
Mentally Retarded - Indiana," (A-05-93-00060)
August 5, 1994
Complete Text of Report is available in PDF format
(2.15 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report recommends that the State of Indiana make a financial
adjustment of $2.5 million (Federal share) for computation errors made in 1991
when setting reimbursement rates for State-owned Intermediate Care Facilities
for the Mentally Retarded (ICF/MRs). We also recommend that the State amend
State Plan provisions which permit special rate increases to accommodate changes
in Federal/State laws and regulations. As currently written the provisions are
too vague to be consistently applied. State agency and regional officials of
the Health Care Financing Administration concurred with our findings and recommendations.